No. 20-701
IN THE

Supreme Court of the United States
JAMES CALVERT,
Petitioner,
v.
STATE OF TEXAS,
Respondent.
On Petition for a Writ of Certiorari to the
Texas Court of Criminal Appeals
PROOF OF SERVICE
I hereby certify that on the 19th day of February, 2021, a copy of
Respondent’s Brief in Opposition were sent via electronic mail to
Petitioner’s counsel of record, David W. Debruin, 1099 New York Ave.,
NW, Ste. 900, Washington, DC
20001; (202) 639-6015;
ddebruin@jenner.com. All parties required to be served have been served.
I am a member of the Bar of this Court.
Jennifer Wren Morris
JENNIFER WREN MORRIS
Assistant Attorney General
Counsel of Record
P.O. Box 12548, Capitol Station
Austin, Texas 78711
(512) 936-1400
jennifer.wren@oag.texas.gov
Counsel for Respondent

